   CONTRACT MANAGEMENT FOR THE NATIONAL DEFENSE
       CENTER FOR ENVIRONMENTAL EXCELLENCE

Report No. D-2000-188                           September 14, 2000


           This special version of the report has been revised
           to omit contractor sensitive and Privacy Act data


             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
ARDEC                 Armament Research, Development, and Engineering Center
CAS                   Cost Accounting Standards
CTC                   Concurrent Technologies Corporation
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DEER2                 Demanufacturing of Electronic Equipment for Reuse and
                       Recycling
FAR                   Federal Acquisition Regulation
NDCEE                 National Defense Center for Environmental Excellence
OMB                   Office of Management and Budget
TACOM                 Tank-Automotive and Armaments Command
                                 Office of the Inspector General, DoD
 Report No. D-2000-188                                                          September 14, 2000
       (Project No. D1999CB-0068.001)
       (Formerly Project 9CB-5016.01)

             Contract Management for the National Defense Center for
                           Environmental Excellence

                                        Executive Summary

Introduction. This audit was initiated in response to a request from the Deputy Under
Secretary of Defense (Environmental Security) to review the National Defense Center for
Environmental Excellence (the Center). Congress established the Center as a resource to
transition environmentally acceptable materials and processes to DoD industrial activities
and private industry. Concurrent Technologies Corporation operates the Center under
contract DAAE30-98-C-1050, a cost-plus-fixed-fee, level of effort contract, with a ceiling
price of $150 million.

This report is the second in a series. On May 22, 2000, we issued Report No. D-2000-127,
"Program Management of the Materials and Processes Partnership for Pollution Prevention,"
that discussed that a lease analysis was not performed for a commercial facility in Edgefield,
South Carolina, in which $3 million in facility renovations were directly charged to the
contract.

Objective. The overall audit objective was to determine the effectiveness of the Center in
developing and disseminating environmental technologies for DoD. This report discusses
our evaluation of the contracting procedures relating to contract DAAE30-98-C-1050. We
also evaluated the adequacy of management controls related to the objective. A subsequent
report will discuss the Center's transfer of environmental technologies and the associated
benefits to the DoD end user.

Results. The Concurrent Technologies Corporation charged general purpose property1 and
leased facility improvements as direct costs to contract DAAE30-98-C-1050 instead of
applying them as indirect costs. As a result, the contractor issued purchase orders for $∗ in
unallowable charges that are not in compliance with Office of Management and Budget
Circular A-122, Federal Acquisition Regulation, and Cost Accounting Standards regulations;
and the Army cannot be assured of receiving best value for its contract expenditures. The
contractor also has charged lease costs for unoccupied office space in a commercial leased
facility in Edgefield, South Carolina (Finding A).

 1
  'Property' is defined as all property, both real and personal and includes general purpose equipment,
   material, special test equipment, and agency peculiar property.
 ∗
     Proprietary data omitted.


                                                       i
In addition, the Army did not require Concurrent Technologies Corporation to conduct a
lease analysis for a leased facility in Largo, Florida. As a result, the Army cannot be assured
of receiving best value for the lease costs and facility construction costs incurred to perform
the contract. Further, Concurrent Technologies Corporation charged lease costs for the
commercial facility in Largo, while the facility was under construction and unoccupied by
the contractor (Finding B).

The management controls that we reviewed were effective in that no material management
control weakness was identified. See Appendix A for details on the management control
program.

Summary of Recommendations. We recommend that the Army require Concurrent
Technologies Corporation to comply with Federal Acquisition Regulation and the Office of
Management and Budget Circular A-122 provisions for capital expenditures and leased
facilities for the National Defense Center for Environmental Excellence contract. We
recommend that the Director, Defense Contract Audit Agency, make indirect cost rate
adjustments on contract DAAAE30-98-C-1050 for all unallowable direct and indirect
charges for general purpose property, lease costs, and leased facility improvements. We
recommend that the Director, Defense Contract Management Agency, implement Defense
Contract Audit Agency recommendations for indirect cost rate adjustments for the
unallowable direct and indirect contract charges on contract DAAAE30-98-C-1050.

Management Comments. The Army concurred with the recommendations relating to
compliance with Federal Acquisition Regulation and the Office of Management and Budget
Circular A-122 provisions for capital expenditures and leased facilities. The Army non-
concurred with a draft report recommendation that approval be obtained from the Assistant
Secretary of the Army for incurred construction costs for the Largo, Florida facility. The
Army noted that approval was not necessary since the contracting officer did not intend to
authorize the construction. The Defense Contract Audit Agency and the Defense Contract
Management Agency concurred with recommendations on indirect cost rate adjustments for
the unallowable contract charges.

Audit Response. Management comments were responsive. As a result of Army comments
we deleted the draft report recommendation concerning approval from the Assistant
Secretary of the Army.




                                               ii
Table of Contents

Executive Summary                                                            i


Introduction
     Background                                                             1
     Objective                                                              3

Findings
     A. Direct Contract Costs for Government Property and Leased Facility
           Improvements                                                      4
     B. Lease Analysis and Facility Construction                            11

Appendixes
     A. Audit Process
          Scope                                                             19
          Methodology                                                       19
          Management Control Program                                        20
          Prior Coverage                                                    21
     B. Contract Task Description                                           22
     C. Federal Acquisition Regulation Guidance                             24
     D. Summary of Purchase Order Costs                                     26
     E. Report Distribution                                                 31

Management Comments
     Department of the Army                                                 33
     Defense Contract Audit Agency                                          39
     Defense Contract Management Agency                                     47
Background
    The FY 1990 Supplemental Appropriations Act, Public Law 101-302, provided
    for the establishment of the National Defense Center for Environmental
    Excellence (NDCEE) in Johnstown, Pennsylvania. Congress established the
    NDCEE as a DoD resource to transfer demonstrated environmentally acceptable
    materials and processes to DoD industrial activities, to provide training that
    supports new environmentally acceptable technologies, and to support applied
    research and development.

    Executive Agent. The Deputy Under Secretary of Defense (Environmental
    Security) designated the Army as the executive agent for NDCEE in 1991. The
    Secretary of the Army delegated NDCEE responsibility to the Army Materiel
    Command. On March 14, 2000, the Secretary of the Army reassigned the task of
    Executive Agent to the Assistant Secretary of the Army (Installations and
    Environment). The Executive Agent will provide oversight in the areas of policy,
    budget, and other Defense Department concerns to NDCEE. The Army staff will
    oversee day-to-day operations at NDCEE.

    NDCEE Program. The NDCEE is managed by Concurrent Technologies
    Corporation (CTC), a nonprofit corporation with headquarters in Johnstown,
    Pennsylvania, and regional field offices throughout the United States. In
    July 1991, the Army awarded CTC a startup cost reimbursement contract to
    operate and manage the NDCEE program. In April 1993, CTC was awarded a
    60 month, noncompetitive cost reimbursement contract (DAAA21-93-C-046) for
    the continued operation of the NDCEE.

    CTC operates the NDCEE under contract DAAE30-98-C-1050 awarded April 30,
    1998. This contract is a noncompetitive, cost-plus-fixed-fee, level of effort,
    research and development contract for 60 months, with a ceiling price of
    $150 million. As of February 2000, the Army has obligated $59 million on this
    contract.

    Contracting Officials. The Tank-automotive and Armaments Command-
    Armament Research, Development and Engineering Center (TACOM-ARDEC)
    Acquisition Center provides contracting officer support for the NDCEE contract,
    while the TACOM-ARDEC Industrial Ecology Center provides the contracting
    officer’s technical representative for the NDCEE contract. The Defense Contract
    Management Agency (DCMA)2 provides contract administration services and the
    Defense Contract Audit Agency (DCAA) has contract audit responsibility for
    CTC. Both DCMA and DCAA provide services from their Pittsburgh,
    Pennsylvania, offices.

    We requested audit assistance from DCAA in support of this audit. DCAA
    reviewed the contractor's incurred costs for contract DAAE30-98-C-1050 to
    determine compliance with cost accounting standards (CAS) and Office of

    2
     Effective March 27, 2000, the Defense Contract Management Command was redesignated as the
     Defense Contract Management Agency.
                                            1
           Management and Budget (OMB) Circular A-122, "Cost Principles for Non-Profit
           Organizations." We also requested that DCMA review CTC leased space
           requirements in Edgefield, South Carolina, for management of the Materials and
           Processes Partnership for Pollution Prevention program.

           On April 24, 2000, DCAA issued a report that concluded CTC submitted $∗ in
           unallowable contract charges for general purpose property, leased facility
           renovations, and idle leased facility space. These contractor costs were not in
           compliance with CAS and OMB Circular A-122 provisions. On May 17 and
           July 17, 2000, DCAA released additional reports to the DCMA detailing CTC
           noncompliance with CAS standards.

           Demanufacturing of Electronic Equipment for Reuse and Recycling
           (DEER2). By the summer of 2000, CTC plans to open a DEER2 demonstration
           facility in Largo, Florida. This is a congressionally directed project that was
           funded in FY 1999 and FY 2000. The objective of the DEER2 program is to
           develop and demonstrate technologies and processes for the reuse, recycling, or
           disposal of electronic equipment and material used by DoD and its suppliers.
           Also, the DEER2 program will establish a pilot recycling site at Johnstown,
           Pennsylvania, to develop a cost-effective operational site to integrate and apply
           demanufacturing technology management of surplus commercial and Government
           electronic equipment. For FY 1999, the DEER2 program was funded at $5.5
           million. For FY 2000, DEER2 has been appropriated $13 million in research and
           development funds. Appendix B describes the contract tasks reviewed.

           Federal Acquisition Regulation (FAR). Subpart 45.302-"Providing facilities,"
           states, "(a) Contractors shall furnish all facilities required for performing
           Government contracts except as provided in this subsection . . .. Agencies shall
           not furnish facilities to contractors for any purpose, including restoration,
           replacement, or modernization . . ." unless they qualify for one of five exceptions
           allowed by the FAR. Also, the FAR states, (b) "Agencies shall not . . . (2) Use
           research and development funds to provide contractors with new construction or
           improvement of general utility, unless authorized by law." Appendix C discusses
           FAR Part 45, "Government Property" provisions.

           DoD Policy. In a November 25, 1996, Office of the Under Secretary of Defense
           (Acquisition and Technology) memorandum, "Government Property," the
           Director of Defense Procurement stated:
                         A recent Defense Contract Management Command (DCMC) special
                         review identified contractor acquisition and direct charging of general-
                         purpose equipment to be a wide spread problem. The review disclosed
                         that contractors are purchasing general-purpose items such as personal
                         computers, fax machines, camcorders, and furniture, and allocating the
                         acquisition cost as direct cost to cost type contracts.




∗
    Proprietary data omitted.
                                                       2
               Generally, Far 31.202, "Direct costs," precludes a contractor from
               allocating general-purpose equipment acquisition cost directly to a
               Government contract if cost incurred for other general-purpose
               equipment in like circumstances have been charged as indirect costs.

    OMB Circular A-122, FAR, and CAS provisions cover the NDCEE contract.

    Indirect Contract Costs. Because of the diverse characteristics and accounting
    practices of nonprofit organizations, it is not possible to specify the types of costs
    that may be classified as indirect costs in all situations. However, OMB Circular
    A-122 guidance states that:

               Indirect costs shall be classified within two broad categories:
               'Facilities' and 'Administration.' 'Facilities' is defined as depreciation
               and use allowances on building, equipment and capital improvement,
               interest on debt associated with certain buildings, equipment and
               capital improvements, and operations and maintenance expenses.
               'Administration' is defined as general administration and general
               expenses such as the director's office, accounting, personnel, library
               expenses and all other types of expenditures not listed specifically
               under one of the subcategories of 'Facilities'.

Objective
    The overall audit objective was to determine the effectiveness of the NDCEE in
    developing and disseminating environmental technologies for DoD. This report
    discusses our audit of the contracting procedures relating to
    DAAE30-98-C-1050 issued to CTC. We also evaluated the adequacy of
    management controls related to the audit objective. A subsequent report will
    discuss the benefits of the NDCEE transfer of environmental technologies to the
    DoD end user. See Appendix A for a discussion of the audit scope and
    methodology and our review of the management control program.




                                              3
                    A. Direct Contract Costs for Government
                       Property and Leased Facility
                       Improvements
                    CTC charged general purpose property and leased facility improvements
                    as direct costs to contract DAAE30-98-C-1050 (the contract) instead of
                    applying the purchases as indirect costs to the contract. The unallowable
                    direct contract charges occurred because:

                                •   the contractor did not provide adequate information in keeping
                                    with procurement policies and regulations when submitting
                                    contract task proposals, and

                                •   the TACOM-ARDEC contracting officer did not adequately
                                    evaluate the task proposals or require additional information.

                    As a result, the contractor issued purchase orders for at least $∗ in
                    unallowable charges that are not in compliance with OMB Circular A-122,
                    FAR, and CAS regulations; and the Army cannot be assured of receiving
                    best value for its contract expenditures. Further, the contractor charged
                    lease costs for unoccupied office space in a leased facility in Edgefield,
                    South Carolina.

Office of Management and Budget Requirements
           Office of Management and Budget Requirements. The OMB Circular A-122,
           "Cost Principles for Non-Profit Organizations," June 1, 1998, includes the
           following provisions for equipment and facilities purchases:

           General Purpose Equipment. Attachment B, paragraph 15a(4) states, "General
           Purpose Equipment means equipment which is usable for other than research,
           medical, scientific, or technical activities . . .. Examples of general purpose
           equipment include office equipment and furnishings, air conditioning equipment,
           reproduction and printing equipment, motor vehicles, and automatic data
           processing equipment."

           Capital Expenditures. Attachment B, paragraphs 15b, c, and d state, "Capital
           expenditures for general purpose equipment are unallowable as a direct cost
           except with the prior approval of the awarding agency. Capital expenditures for
           land or building are unallowable as a direct cost except with the prior approval of
           the awarding agency. Capital expenditures for improvement to land,




∗
    Proprietary data omitted.
                                                      4
           buildings, or equipment, which materially increase their value or useful life, are
           unallowable as direct cost except with the prior approval of the awarding agency."

Direct Contract Costs
           CTC charged general purpose property and leased facility improvements as direct
           costs to contract DAAE30-98-C-1050 instead of applying them as indirect costs.
           CTC routinely charged the contract for acquisitions such as computer hardware
           and software, communications equipment, office furniture, office supplies, and
           leased facility improvements without the approval or authority of the contracting
           officer.

           Based on OMB Circular A-122 requirements, since the general purpose property
           can be used for contracts other than this one, CTC charges should be applied as
           indirect costs and not as direct costs to the contract.

           Contract Tasks. We reviewed seven contract tasks with a total value of $*
           (about * percent of total contract costs) to assess contractor purchases. For the
           seven tasks, we selected 162 purchase orders3 issued for general-purpose property
           and leased facility improvements. The purchase orders, totaling $*, were charged
           to direct cost categories: equipment, material, other direct costs, and subcontracts
           for general-purpose property and leased facility improvements. Appendix D
           summarizes the questionable purchase order charges for seven tasks. CTC
           charged the same types of equipment to several different cost categories. The
           following is a breakout of cost categories used by the contractor.

                    •    Equipment Costs. Direct charges of $* for computer hardware, office
                         furniture, office equipment, fax machines, telephones, and printers.

                    •    Material Costs. Direct charges of $* for purchase of computer
                         hardware and software, office equipment, office supplies, window
                         blinds, and printers. Several of these purchases were for leased
                         facilities in Edgefield, South Carolina, and Largo, Florida.

                    •    Other Direct Costs. Direct charges of $∗ for the purchase of general
                         property items such as computer hardware and software, office
                         furniture, maintenance agreements on office equipment, and window
                         blinds. Several of these items were for the leased facilities in
                         Edgefield, South Carolina, and Largo, Florida.




3
 A portion of the 162 purchase orders selected for this audit were also included in the DCAA statistical
 sample for the incurred cost audit of contractor expenditures under this contract.
∗
    Proprietary data omitted.
                                                     5
                    •    Subcontract Costs. CTC charged $* for subcontract costs. The
                         direct costs included $* for leased facility construction improvements,
                         $* in Edgefield, South Carolina, and $* in Largo, Florida. Additional
                         subcontract costs of $* purchased office carpet, computers, network
                         cabling installation, and other office-related items.

           DoD Policy. DoD policy and FAR provisions provide few exceptions that allow
           a contractor to charge general purpose property as direct contract costs. Because
           of this policy, contractors purchase or lease items and the costs for the items are
           then applied as indirect charges to the contract. Certain high-dollar items
           purchased by the contractor must be capitalized and amortized for specified time
           periods and applied as indirect charges to the contract.

Contracting Actions
           The unallowable direct charges occurred because the contractor did not provide
           information in keeping with procurement policies and regulations when
           submitting contract task proposals. In addition, the TACOM-ARDEC contracting
           officer did not adequately evaluate the task proposals or require additional
           information from the contractor to make an informed decision and to comply with
           OMB Circular A-122 and FAR provisions.

           Contract Task Proposals. In reviewing ten contract tasks, we found that the
           contract task proposals4 did not include detailed price data or other information to
           allow TACOM-ARDEC contract officials to adequately evaluate the
           reasonableness of purchasing computer hardware and software, communications
           equipment, office furniture, office supplies, and leased facility improvements.
           The CTC task proposals either did not list general purpose property items
           purchased, or included items that cost more than the amount approved and
           authorized by the contracting officer. OMB Circular A-122 requires prior
           approval and authorization from contracting officials’ for the contractor to charge
           general-purpose property expenditures as direct costs to the contract.

           Inadequate pricing information in the task proposals limited the contract officials’
           ability to analyze the cost proposals to make an informed decision. The lack of
           information resulted in the purchase of general purpose items and capital
           expenditures for leased facilities without the contracting officer approval and
           authorization as required by OMB Circular A-122 guidance and contract terms.

           FAR Guidance. For proposed contract items, the contractor should identify the
           item and show the source, quantity, and price. FAR subpart 15.403-3, "Requiring
           information other than cost or pricing data," states, "The contracting officer is
           responsible for obtaining information that is adequate for evaluating




*
    Proprietary data omitted.
4
 The term "task proposal" describes the contractual documentation that consists of the task statement of
 work, the Government and contractor cost estimates, and the Cost Agreement Memorandum.
                                                     6
           the reasonableness of the price or determining cost realism." Also, FAR subpart
           15.404-1, "Proposal analysis techniques," holds the contracting officer
           accountable for evaluating the reasonableness of the offered prices. "The
           complexity and circumstances of each acquisition should determine the level of
           detail of the analysis required."

           Task 228. Contract task 228, DEER2, is an example of incomplete contractor
           task proposal information provided to the contracting officer. The task cost
           proposal did not specify subcontract costs, leased facility construction costs, or
           equipment requirements. After task 228 was negotiated, the contractor purchased
           office furniture, computer office systems, office supplies, office carpet, network
           cabling, and leased facility improvements. The contractor did not comply with
           the contract clause FAR 52.244-2 "Subcontracts" provision that requires
           subcontract information to be submitted to the contracting officer for review and
           evaluation. Appendix C discusses the FAR provisions.

           Public Vouchers. NDCEE contract Section G.4, “Invoicing Procedures,”
           authorized the contractor to submit public vouchers directly to payment offices of
           the Defense Finance and Accounting Service. CTC was only required to submit
           the contract's first public voucher to DCAA and the final contract public voucher
           to DCAA and DCMA for review of appropriateness of expenditures and
           compliance with Government regulations.

           On July 14, 2000, DCAA rescinded CTC’s authorization to submit interim public
           vouchers for contract DAAE30-98-C-1050, citing unallowable direct charges to
           the contract (discussed below) that did not have required Government approval.
           The interim voucher procedure limited oversight of contractor direct charges for
           general-purpose property or leased facility improvements. Individual contractor
           expenditures were not monitored to ensure compliance with OMB Circular A-122
           and FAR provisions. Our audit showed that the contractor purchased general
           purpose property items such as office furniture, computers, telephones, fax
           machines, and other property. These items were not proposed as contract costs
           and were not authorized by contract officials.

Unallowable Contract Costs
           The contractor issued purchase orders for $* in unallowable charges to the
           contract that are not in compliance with OMB Circular A-122, FAR, and CAS
           regulations; and the Government cannot be assured of receiving best value for its
           contract expenditures. In addition, the contractor also charged lease costs of $*
           for unoccupied office space in the Edgefield, South Carolina, facility.

           Lease Costs. A DCMA space utilization survey concluded that the Edgefield
           leased facility has * square feet of office space (1st floor) unoccupied by CTC
           personnel. The Army paid $3 million for the facility renovations that included the
           first floor. CTC pays $∗ per month for this unoccupied space, the costs of which
           are being applied as indirect costs to the contract.

∗
    Proprietary data omitted.
                                                7
           We believe the CTC lease costs of $* incurred from July 1, 1999, through April
           30, 2000, should be unallowable as indirect costs since the office space is not
           occupied by CTC. In effect, the Army is not getting best value because they are
           paying for renovation costs and monthly lease costs for office space that is not
           being used.

           DCAA Report. DCAA reviewed the contractor incurred costs for selected
           contract tasks and questioned contractor charges of $* related to general purpose
           property and leased facility costs. The questioned costs included:

                    •    $ ∗ for other direct costs, equipment, and material;

                    •    $* for the Edgefield, South Carolina, leased space; and

                    •    $* for indirect costs as a result of questioned direct charges to the
                         contract.

           The DCAA audit identified the unallowable charges as noncompliant with the
           following CAS provisions:

                  CAS 402. "Consistency in Allocating Costs for the Same Purpose." The
           contractor charged general-purpose property as direct contract costs when similar
           items were applied as indirect costs to other CTC contracts.

                   CAS 404. "Capitalization of Tangible Assets." The contractor charged
           the general purpose equipment as direct contract costs when the contractor
           disclosure statement on the cost accounting methodology required these charges
           to be capitalized and recovered through indirect costs to the contract.

                  CAS 405. "Accounting for Unallowable Costs." The contractor charged
           renovation costs related to unoccupied facility space in Edgefield, South Carolina.
           Because the unoccupied space represents * percent of the facility office space, the
           unallowable costs are $* (* percent of the $* facility renovation costs).

           Indirect Cost. DCAA also questioned CTC indirect costs of $*. These indirect
           costs represent the applied FY 1999 and FY 2000 fixed rates to questioned direct
           contract costs.

Conclusion
           The Army allowed CTC to routinely acquire and directly charge the contract for
           general purpose property such as computer hardware and software, office
           furniture, office supplies, and other property items. CTC purchased general
           purpose property not proposed in the contract task and consequently, not
           approved and authorized by Army contract officials.




∗
    Proprietary data omitted.
                                                   8
    Since Army contract officials did not approve the general purpose items, the
    contractor cannot charge these items as direct costs to the contract. The items
    must be charged as indirect costs instead. We further believe that the lease costs
    for the unoccupied office space in Edgefield, South Carolina are unallowable as
    indirect contract costs.


Recommendations and Management Comments
    A.1. We recommend that the Director of Corporate Contracting, U.S. Army
    Tank-automotive Armaments Command, direct the contracting officer
    appointed to contract DAAE30-98-C-1050 to comply with:

               a. Federal Acquisition Regulation Part 15, "Contracting by
    Negotiations," provisions for competitive and noncompetitive negotiated
    acquisitions.

               b. Federal Acquisition Regulation Part 44, "Subcontracting
    Policies and Procedures," provisions for subcontracts proposed by the
    contractor.

              c. Federal Acquisition Regulation Part 45, "Government
    Property," to minimize the purchase of Government property by the
    contractor.

               d. Office of Management and Budget Circular A-122, "Cost
    Principles for Non-Profit Organizations," June 1, 1998, provisions for
    contractor actions related to all capital expenditures for general purpose
    property and for leased commercial facilities for National Defense Center for
    Environmental Excellence requirements.

    Army Comments. The Army concurred with Recommendation A.1. noting that
    all the recommended actions were included in a planned July 2000 Director of
    Corporate Contracting letter to the contracting officer directing continuing review
    of the identified problem areas and assurance that all matters are resolved in
    accordance with FAR and OMB circulars.

    A.2. We recommend that the Director, Defense Contract Audit Agency,
    Pittsburgh Suboffice:

            a. Adjust the direct costs and indirect rates for contract
    DAAE30-98-C-1050, to reflect the unallowable contract charges for:

                   (1) general-purpose property the contractor charged as direct
               costs instead of indirect costs to the contract;

                  (2) leased facility improvements for the Concurrent
               Technologies Corporation leased building in Edgefield, South
               Carolina; and


                                         9
                            (3) monthly lease costs of $* for the * square feet of
                         unoccupied space in the leased facility in Edgefield,
                         South Carolina.

                 b. Rescind Concurrent Technology Corporation authority to directly
           submit vouchers for DAAE30-98-C-1050 contract expenditures to the
           Defense Finance Accounting Service payment office without prior approval.

                  c. Provide the Defense Contract Management Agency, Pittsburgh
           Area Office, recommendations to adjust direct charges and indirect rates for
           contract DAAE30-98-C-1050 for unallowable charges that have been
           incurred by Current Technologies Corporation.

           DCAA Comments. DCAA concurred with Recommendation A.2 stating that
           actions called for by Recommendations A.2.a.(1), A.2.a.(2), and A.2.b. were
           completed through release of DCAA Report No. 6701-2000G19200001, “Audit
           Report on Noncompliance with Cost Accounting Standard 404, Capitalization of
           Tangible Assets; CAS 405, Accounting for Unallowable Costs; CAS 402,
           Consistency in Allocating Costs Incurred for the Same Purpose; the Contractor’s
           Disclosed Cost Accounting Practice; and OMB Circular A-122,” dated May 17,
           2000; and Report No. 6701-2000G19200003, “Audit Report on Noncompliance
           with Cost Accounting Standard 401, Consistency in Estimating, Accumulating
           and Reporting Costs and the Contractor’s Disclosed Cost Accounting Practices,”
           dated July 17, 2000.

           DCAA noted that the previously released Report No. 6701-1999G17900003
           questioned contract DAAE30-98-C-1050 charges of about $* for unallowable
           direct materials and additional $∗ of unallowable charges and included
           recommendations to adjust contract direct charges and indirect rates. DCAA also
           stated that Report No. 6701-2000G19200001 cited CTC for noncompliance with
           Cost Accounting Standards 402, 404, and 405 due to the unallowable charges.
           DCAA stated that its Pennsylvania Branch Office advised CTC that any cost
           claimed in FY 2000 and future periods related to the idle space will be questioned
           in annual incurred cost audits of CTC. On July 14, 2000, DCAA notified CTC,
           the administrative contracting officer, and the Defense Finance and Accounting
           Service paying office, that CTC was no longer authorized to submit interim
           vouchers for payment directly on contract DAAE30-98-C-1050.

           A.3. We recommend that the Director, Defense Contract Management
           Agency, Pittsburgh Area Office, implement the Defense Contract Audit
           Agency, Pittsburgh Suboffice, recommendations to adjust the direct charges
           and the indirect rates for unallowable costs incurred on contract
           DAAE30-98-C-1050.

           DCMA Comments. DCMA concurred with Recommendation A.3. stating that
           the DCMA Pittsburgh Area Office would implement the DCAA
           recommendations as deemed appropriate.




∗
    Proprietary data omitted.
                                                 10
                    B. Lease Analysis and Facility
                       Construction
                    The Army did not require CTC to conduct a lease analysis for a
                    commercial facility in Largo, Florida. The failure to conduct a lease
                    analysis occurred because TACOM-ARDEC contracting officials:

                                •   did not adequately evaluate the task proposals submitted by
                                    CTC,

                                •   did not comply with procurement policies and regulations, and

                                •   did not coordinate with the Defense Contract Management
                                    Agency, Pittsburgh Area Office.

                    As a result, the Army cannot be assured of receiving the best value for its
                    research and development funds because the Army may pay for lease costs
                    and facility renovation costs not needed to perform the contract. Further,
                    the Army has paid lease costs of $∗ for the leased facility in Largo, since
                    July 1999, while the facility was under construction.

Contracting Requirements
           United States Code. Section 2353, title 10, United States Code (10 U.S.C. 2353)
           prohibits new construction or improvements of a general utility for research and
           development facilities operated under DoD contracts. Facilities that cannot be
           removed or separated without unreasonable expense or loss of value will not be
           installed or constructed on property not owned by the Government. The
           Government will be reimbursed for the fair value of the facilities constructed on
           property not owned by the Government at the completion of the contract or within
           a reasonable time thereafter, or the Government will be given the option to
           acquire the underlying land.

           Federal Acquisition Regulation Supplement. Army FAR Supplement,
           subpart 35.014, "Government Property and Title" states:
                         Prior to entering into a contract for research or development or both
                         which provides for the acquisition or construction by, or furnishing to,
                         the contractor of research, development, or test facilities and
                         equipment, the Secretary of the Army must determine that the facilities
                         and equipment are necessary for the performance of the contract (10
                         U.S.C. 2352). [Emphasis added]

           The authority to approve such requests was delegated to the Assistant Secretary of
           the Army for Acquisition, Logistics, and Technology (formerly the Assistant
           Secretary of the Army for Research, Development, and Acquisition).

∗
    Proprietary data omitted.
                                                      11
    Office of Management and Budget. The OMB Circular A-122, "Cost Principles
    for Non-Profit Organizations," June 1, 1998, includes the following provisions for
    facilities acquired by nonprofit organizations.

            Material Improvements. Attachment B, Paragraph 15d, states, "Capital
    expenditures for improvement to land, buildings, or equipment which materially
    increase their value or useful life are unallowable as direct cost except with the
    prior approval of the awarding agency."

            Lease Analysis. Attachment B, Paragraph 46, states, "Rental costs are
    allowable to the extent that rates are reasonable in light of such factors as: rental
    costs of comparable property, if any; market conditions in the area; alternatives
    available; and the type, life expectancy, condition, and value of the property
    leased."

Lease Analysis
    The Army contracting officer did not require CTC to conduct a lease analysis for
    the commercial facility in Largo, Florida. On February 9, 1999, TACOM-
    ARDEC issued a cost agreement memorandum to CTC that authorized work on
    the DEER2 task proposal for $5.5 million. The CTC task proposal did not include
    an analysis of lease space for the Largo, geographic area to support the DEER2
    task statement of work requirements.

    A lease analysis was needed by the TACOM-ARDEC contracting officials to
    ensure that the Government would incur minimum lease costs for the DEER2
    task. An analysis would have provided contracting officials an objective basis to
    determine the reasonableness of lease costs, to include any leased facility
    construction improvements needed for contract requirements.

    Inspector General, DoD, Report No. D-2000-127, "Program Management of the
    Materials and Processes Partnership for Pollution Prevention," May 22, 2000,
    discusses CTC failure to perform a lease analysis for a commercial facility in
    Edgefield, South Carolina, for which $3 million in facility renovations were
    directly charged to the contract. The report also states that the contracting officer
    did not coordinate with the DCMA administrative contracting officer to perform a
    commercial leased space utilization review for NDCEE facility requirements at
    the Johnstown, Pennsylvania, or the Edgefield, South Carolina, locations.

    Facility Lease Agreement. On April 1, 1999, CTC entered into a 10-year facility
    lease agreement with the lessor, HP Star 1, Limited, for the Technology




                                          12
           Center in Largo. The Technology Center will be approximately * square feet;
           * square feet of office space and * square feet of open bay space.

           On July 1, 1999, CTC initiated lease payments of $* per month for the
           Technology Center facility even though the facility was under construction and
           the DEER2 staff will not occupy the facility until the summer of 2000. The lease
           agreement states:

                         The term of this Lease shall commence on July 1, 1999, (the
                         "commencement date") and shall end on the last day of the month that
                         is 120 months after the commencement date. Tenant may occupy the
                         Premises and begin interior finish work on the "occupancy date" . . ..

           The lease has a provision that allows CTC to terminate only in the event that the
           Government task funding for the DEER2 task is terminated, cancelled, or expired.
           The termination will be allowed only if CTC funding is eliminated or
           substantially reduced. CTC will have the right to terminate the lease effective
           June 30 of each year by providing a written notice on or before March 30.

           Facility Improvement Costs. On February 25, 1999, CTC issued a subcontract
           to Ed Taylor Construction South, Incorporated, for construction services for
           infrastructure improvements at two leased facilities (Building 1200 and the
           Technology Center) in Largo. As of January 2000, construction costs of $* had
           been charged as direct costs: $* for Building 1200 and $* for the Technology
           Center. An additional $* expense will be incurred for infrastructure
           improvements to the Technology Center facility. The following is a partial list of
           the interior construction requirements for the Technology Center:

                 •   design fees for architectural, structural, electrical and mechanical;

                 •   sanitary underground drains, including permits and fees;

                 •   electrical underground work;
                 •   increase of mezzanine size;

                 •   concrete footings for mechanical and electrical rooms;

                 •   additional panel height and pits for the loading dock as well as overhead
                     doors;

                 •   design provisions for the finish-out for office space; and

                 •   design provisions for air conditioning equipment and system operation.

           CTC stated that the $* construction costs for leased facilities at Largo would be
           charged directly to the DEER2 task using research and development program
           funds for FY 1999 and FY 2000.


*
    Proprietary data omitted.
                                                      13
           Site Visit. On February 18, 2000, we inspected Building 1200 in Largo. During
           our visit, we observed that the Technology Center building shell was completed
           but that the facility infrastructure was still under construction. We were informed
           that the facility would be completed by the summer of 2000 for DEER2
           contractor personnel. During our inspection of Building 1200, it appeared the
           space was largely unused because the needed equipment for the DEER2 task
           requirements had not arrived.

Contract Management
           The failure to conduct a lease analysis occurred because TACOM-ARDEC
           contracting officials did not adequately evaluate the task proposals submitted by
           CTC, did not comply with procurement policies and regulations, and did not
           coordinate with the Defense Contract Management Agency, Pittsburgh Area
           Office.

           Task Proposal. The DEER2 task statement of work specified leased space in
           Largo, Florida, as the preferred location for a CTC field office. This requirement
           should have put both CTC and TACOM-ARDEC contracting officials on notice
           that a lease analysis to support this decision was required by OMB Circular A-122
           provisions.

           Because there was no contractor lease analysis as required by OMB Circular A-
           122 provisions, the contracting officials did not perform an adequate analysis of
           the DEER2 cost proposal for the task requirements. A lease analysis of
           alternative facilities in the Largo area would have provided an objective basis for
           determining if CTC leased space costs were reasonable and in the best interest of
           the Army.

                    Subcontract Documentation. The CTC DEER2 task proposal negotiated
           with TACOM-ARDEC contracting officials did not include subcontract costs for
           the infrastructure construction requirements at the leased facility. After the task
           proposal was negotiated on February 9, 1999, CTC issued a subcontract for
           facility infrastructure construction work at the facility. The construction costs
           were charged as direct contract costs to Task 228. These direct charges are
           unallowable because the Army contracting officials did not negotiate and
           authorize the use of research and development funds for subcontracted
           construction work.

                   Construction Approval. In response to our audit the contracting officer
           determined that the construction of the DEER2 facility would not be authorized
           and that a construction approval request for the facility to the Assistant Secretary
           of the Army for Acquisition, Logistics, and Technology, was not necessary.

           Defense Contract Management Agency Review. The TACOM-ARDEC
           contracting officer did not request that the DCMA administrative contracting
           officer review the DEER2 task plan to lease an ∗ square foot facility in Largo.



∗
    Proprietary data omitted.
                                                14
           An evaluation of the leased space utilization requirements would have provided
           an independent Government estimate of CTC space requirements for the DEER2
           task. This evaluation would have assured the Army that it was incurring
           minimum lease costs and that lease contracts did not include idle facility space
           with construction improvements paid for by the Army.

Leased Facility Costs
           The Army cannot be assured of receiving the best value for its money because the
           Government may pay lease costs and facility renovation costs not needed to
           perform the NDCEE contract.

           Leased Facility Costs. The Technology Center facility total estimated costs for
           the DEER2 requirements will be $* : $* for construction costs and $* for lease
           costs for 46 months.5

           Included in the lease costs are contractor charges of $∗ while the Technology
           Center in Largo has been under construction since July 1999. Except for the
           construction direct costs, the Technology Center's annual lease cost is applied as
           an indirect charge to the NDCEE contract.

           The following table shows the Technology Center annual occupancy costs for 46
           months (July 1, 1999, through April 29, 2003).


                                              Technology Center Facility Costs

                                Facility Space           Lease Rate              Annual Occupancy
                                 (square feet)           (square feet)                Costs

                     Year 1               *                    $* 1                        $*
                     Year 2               *                      *                           *

                     Year 3               *                      *                           *
                     Year 4               *                      *                          *2
                 1
                   Square footage cost of $* includes the $* square foot rate plus the computed
                  square foot cost of $* based on the leased facility construction costs of $*.
                 2
                   The lease costs include only 10 months, July 1, 2002 through April 29, 2003.


           Indirect Lease Cost. We believe the CTC lease costs being applied as indirect
           costs are unallowable because the Technology Center has been under construction

5
 The lease costs are determined through April 29, 2003, the NDCEE contract performance period of April
 30, 1998 through April 29, 2003.
∗
    Proprietary data omitted.
                                                      15
           during this period. The facility should be considered idle space until occupied by
           DEER2 contractor personnel.

           In effect, the Army lease costs for the first year are underwriting the construction
           costs of the Technology Center. Generally, a commercial real estate lessor incurs
           the costs to construct a commercial facility. Lease costs are charged to the tenant
           only when the facility is occupied.

Conclusion
           The Army failure to require CTC to do a lease analysis for DEER2 leased facility
           requirements has resulted in increased lease costs for the Army. The Technology
           Center has been improved from a commercial building shell configuration to an
           upgraded facility consisting of an open bay area and office space. The Army has
           not received contract consideration for the $∗ that will be invested in the facility,
           which benefits the lessor because of the increased value of the facility. In
           addition, since July 1, 1999, CTC has paid about $* in monthly lease costs for the
           Technology Center while it has been under construction. These lease costs have
           been applied as indirect contract costs for space that we consider idle space while
           the Technology Center is under construction. The lease costs should be
           disallowed as indirect costs until CTC DEER2 personnel occupy the Technology
           Center.

           We believe the leased facility construction costs in Largo are unallowable as
           direct costs and should be applied as indirect costs to the contract. The leased
           facility construction costs were not proposed in the DEER2 task and,
           consequently, the facility construction costs were not approved by Army officials
           as allowable direct charges to the contract. In response to our audit the
           contracting officer determined that the construction of the DEER2 facility would
           not be authorized and that Assistant Secretary of the Army for Acquisition,
           Logistics, and Technology approval would not be requested.

Management Comments on the Finding and Audit Response
           Management Comments. The Army, while concurring with the finding
           disagreed with a draft report comment that contracting officials did not request
           construction approval for the DEER2 facility from the Assistant Secretary of the
           Army for Acquisition, Logistics, and Technology, as required by the Army FAR
           supplement part 35.014. The Army noted that Army FAR supplement part 35.014
           does not apply since the contracting officer will not approve construction of the
           DEER2 facility.

           Audit Response. We revised the finding discussion to reflect the contracting
           officer decision.


∗
    Proprietary data omitted.




                                                16
Recommendations, Management Comments, and Audit
  Response
           Deleted and Renumbered Recommendations. As a result of Army comments
           we deleted Draft Recommendation B.1.a. and renumbered Draft
           Recommendations B.1.b. and B.1.c. as Recommendations B.1.a. and B.1.b.,
           respectively.

           B.1. We recommend that the Director of Corporate Contracting, U.S. Army
           Tank-automotive Armaments Command:

                    a. Require Concurrent Technologies Corporation to perform a lease
                    analysis for leased space requirements in the Largo, Florida, area for
                    present and future leased space requirements for the National Defense
                    Center for Environmental Excellence program.

                    b. Comply with provisions of Office of Management and Budget
                    Circular A-122, “Cost Principles for Non-Profit Organizations,” June
                    1, 1998, to provide a lease analysis for all future leased space
                    requirements for the National Defense Center for Environmental
                    Excellence program.

           Army Comments. The Army concurred with Recommendations B.1.a. and
           B.1.b. noting that these recommended actions were included in the Director of
           Corporate Contracting direction to the contracting officer noted in
           Recommendation A.1. The Army non-concurred with a draft report
           recommendation that the contracting officer be directed to request approval from
           the Assistant Secretary of the Army for the $∗ in incurred construction costs for
           the CTC Largo, Florida facility. The Army noted that secretarial approval was
           not required because the contracting officer did not intend to authorize the
           construction.

           Audit Response. Management comments were responsive. Based on the Army
           comments we deleted the draft report recommendation concerning approval from
           the Assistant Secretary of the Army.

           B.2. We recommend that the Director, Defense Contract Audit Agency,
           Pittsburgh Suboffice, adjust the direct costs and the indirect rates for
           contract DAAE30-98-C-1050 due to unallowable charges for:

                    a. Leased facilities improvements of $* for the Pinellas Star
                    Technology Center and Building 1200 in Largo, Florida, charged as
                    direct costs to the contract.

∗
    Proprietary data omitted.




                                               17
                    b. Lease costs incurred from July 1, 1999 through June 1, 2000, for
                    idle leased space in the Pinellas Star Technology Center in Largo,
                    Florida, while the facility was under construction and not occupied by
                    Concurrent Technologies Corporation personnel associated with the
                    Demanufacturing of Electronic Equipment for Reuse and Recycling
                    task.

                    c. Provide the Defense Contract Management Agency, Pittsburgh
                    Area Office, recommendations to adjust the direct costs and the
                    indirect rates for contract DAAE30-98-C-1050 for the unallowable
                    charges for Concurrent Technologies Corporation leased space in
                    Largo, Florida.

           DCAA Comments. DCAA concurred with Recommendation B.2. stating that
           Report No. 6701-19999G17900003 requested that DCMA immediately adjust $*
           of the $∗ in unallowable Largo leased facilities costs. DCAA stated that it had
           notified CTC that the remaining $* would be questioned when DCAA reports to
           DCMA the results of its annual incurred cost audit of CTC charges as of June 30,
           2000. DCAA also noted that recommendations to adjust the direct costs and the
           indirect rates would also be made to DCMA upon completion of the referenced
           audit.

           B.3. We recommend that the Director, Defense Contract Management
           Agency, Pittsburgh Area Office, ensure that the contractor implements the
           Defense Contract Audit Agency, Pittsburgh Suboffice, recommendations to
           adjust the direct costs and the indirect rates for contract DAAE30-98-C-1050
           for the unallowable charges for leased facility costs in Largo, Florida.

           DCMA Comments. DCMA concurred with Recommendation B.3. stating that
           the DCMA Pittsburgh Area Office plans to review and implement the DCAA
           recommendations as deemed appropriate.




∗
    Proprietary data omitted.




                                               18
Appendix A. Audit Process

Scope
    We reviewed NDCEE research and development contract DAAE30-98-C-1050,
    awarded April 30, 1998, as a noncompetitive, cost-plus-fixed-fee, level of effort
    contract with a ceiling price of $150 million. We evaluated the contract costs
    using applicable requirements contained in the OMB Circular A-122, FAR, and
    CAS.

    We reviewed 10 contract tasks funded for $47.2 million (about 80 percent of
    contract costs) from May 1998 through January 2000. We judgmentally selected
    and reviewed 162 purchase orders for 7 of 10 contract tasks to determine what the
    contractor was charging the contract. The audit reviewed the CTC purchase
    orders issued from October 1, 1998, through February 1, 2000. We also made a
    site visit to Largo, Florida, to review the leased facility requirements and the
    associated construction costs charged to the contract.

    DCAA reviewed incurred costs for contract DAAE30-98-C-1050. DCAA
    statistically selected CTC purchase orders that incurred costs from October 1,
    1998, through October 31, 1999. For FY 1999 and FY 2000, the purchase of
    high-dollar items and a sampling of the remaining purchase order transactions for
    this period was made. DCMA reviewed CTC current commercial leased space
    utilization for facilities in Johnstown, Pennsylvania; Edgefield, South Carolina;
    and Largo, Florida; and for CTC leased space requirements for NDCEE.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

Methodology
    To accomplish the audit, we identified and analyzed contract DAAE30-98-C-
    1050 task requirements, policy, and guidance related to the NDCEE program. For
    each task we:

           •   reviewed the contract task documentation, the associated contract
               negotiation memorandum, and other related contract information;

           •   reviewed CTC purchase orders for each task to determine what was
               being purchased, and compared the purchase orders with each task
               statement of work, cost proposal, and other task related information;

           •   compared the purchase orders we reviewed with DCAA purchase
               orders it selected for review; and


                                        19
           •   conducted interviews, site visits, and data collection at the Army
               Research and Development Center, Picatinny, New Jersey; Defense
               Contract Management Agency, Pittsburgh, Pennsylvania; Defense
               Contract Audit Agency, Pittsburgh Suboffice, Pennsylvania; and
               Concurrent Technologies Corporation, Johnstown, Pennsylvania;
               Edgefield, South Carolina; and Largo, Florida.

    To determine compliance with CAS, FAR, OMB Circular A-122, and contract
    terms, we requested assistance from the Defense Contract Audit Agency to review
    the CTC direct and indirect charges for contract DAAE30-98-C-1050. We also
    requested assistance from the DCMA to review the CTC leased space utilization
    requirements for facilities at Johnstown, Pennsylvania; Edgefield, South Carolina;
    and Largo, Florida.

    Audit Type, Dates, and Standards. We performed this program audit from
    July 1999 through April 2000, in accordance with standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD. We did not rely on computer-processed data or statistical
    sampling procedures.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and Concurrent Technologies Corporation located in
    Johnstown, Pennsylvania; and Largo, Florida. Further details are available upon
    request.

Management Control Program
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provide reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. We reviewed the adequacy of the
    management controls over the TACOM-ARDEC research and development
    contract. Specifically, we reviewed the cost reimbursable contract DAA30-98-C-
    1050 and the associated NDCEE project tasks.

    Adequacy of Management’s Control. We identified no material management
    control weakness in the award and administration of tasks issued on contract
    DAA30-98-C-1050. We did not assess the adequacy of management's self-
    evaluation.

    However, our review of tasks for contract DAA30-98-C-1050 showed that the
    TACOM-ARDEC contracting officials did not comply with management controls
    for a nonprofit Government contract. Recommendations A.1. and B.1. will
    correct the noncompliance with internal management controls for a nonprofit
    Government contract. A copy of the report will be provided to the senior official
    responsible for management controls in TACOM-ARDEC.


                                        20
Prior Coverage

Inspector General, DoD
     Inspector General, DoD, Report No. 97-090, “Audit Report on Electronic
     Commerce Resource Centers,” February 11, 1997.


Defense Contract Audit Agency
     DCAA Report No. 6701-2000G19200003, “Audit Report on Noncompliance with
     Cost Accounting Standard 401, Consistency in Estimating, Accumulating and
     Reporting Costs and the Contractor’s Disclosed Cost Accounting Practices,”
     July 17, 2000.

     DCAA Report No. 6701-2000G19200001, “Audit Report on Noncompliance with
     Cost Accounting Standard 404, Capitalization of Tangible Assets, CAS 405,
     Accounting for Unallowable Costs, CAS 402, Consistency in Allocating Costs
     Incurred for the Same Purpose, the Contractor’s Disclosed Cost Accounting
     Practice and OMB Circular A-122 Noncompliance with Cost,” May 17, 2000.

     DCAA Report No. 6701-1999G17900003, "Audit of Costs Incurred on Contract
     No. DAAE30-98-C-1050," April 24, 2000.




                                       21
Appendix B. Contract Task Description
   Task 001. For the 1998 NDCEE contract, Task 001 is issued each fiscal year for
   the Army to manage the NDCEE program. The NDCEE funds are used by CTC
   to demonstrate and export new environmentally acceptable technology for use by
   the Services' industrial activities.

   The Army funded the NDCEE program at $4.5 million in FY 1999 and as of
   February 14, 2000, $3.5 million in FY 2000. Task 001 funds are applied to
   various environmental areas such as the CTC technology facility in Johnstown,
   Pennsylvania; Army/DoD initiatives for environmental management systems;
   marketing energy conservation on fuel cell applications; and expanding
   capabilities in corrosion protection through surface technologies to support
   military logistics and operational requirements.

   Task 200. Task 200 is the Navy Environmental Leadership Program (NELP)
   demonstration project. In April 1998, the NELP program received $2.3 million.
   The period of the task performance is April 1998 through April 1999.

   Task 200 was initiated by NELP in cooperation with CTC, Electrolux Inc, and
   Bath Iron Works. The task is to identify and demonstrate a technology to remove
   the problematic constituents of aqueous film from wastewater generated at Navy
   shore installations that causes environmental compliance problems.

   Task 211. Task 211 is the "U.S. Army Construction Engineering Research
   Laboratory Fuel Cell" program. The program task was appropriated $1.9 million.
   The period of the task performance is September 1998 through September 2001.

   The fuel cell program provides testing and evaluations of a 200-kilowatt PC25
   phosphoric acid power plant to achieve life-cycle-cost reduction and performance
   improvements. The program initiated the design and construction of a fuel cell
   test and evaluation center power plant to be operated by CTC. The plant's
   purpose is to design improvements in energy conservation and environmental
   applications for the DoD.

   Task 213. Task 213 is the "Environmental Quality Technology-Sustainable Green
   Manufacturing" program that was funded for $4.8 million. The period of the task
   performance is from September 1998 through September 2000.

   The Sustainable Green Manufacturing program conducts research modeling and
   simulation, environmental engineering, coatings, corrosion prevention, and
   demilitarization technologies required for environmental improvements. The
   program also facilitates environmental technology development and a training
   program concerning the application of environmental life-cycle concepts.




                                      22
Task 221. Task 221 is the "Puget Sound Naval Shipyard Wastewater Technology
Test Bed" program. The Naval program provides the technology to recycle,
recover, and reuse shipyard wastewater.

In July 1998, the Navy program was funded for $2.5 million. Task 221 is
completed and closed.

Task 227. Task 227 is the "Materials and Processes Partnership for Pollution
Prevention (MP4)" funded for $14 million. The National Defense Authorization
Act of FY 1999 directed that DoD use these funds to develop new materials and
manufacturing processes to validate technology for pollution abatement,
enhancement of weapons systems performance, and the reduction of life cycle
operations and maintenance costs for DoD. The MP4 is also focusing on
environmentally friendly corrosion protection for material coatings and their
associated manufacture processing. The scheduled task performance is
February 1999 through April 2000.

Task 228. Task 228, the "Demanufacturing of Electronic Equipment for Reuse
and Recycling" (DEER2) program, develops and demonstrates technologies and
processes for the reuse, recycling, or disposal of manufactured electronic
equipment used by DoD and its suppliers. The DEER2 program will disassemble
obsolete commercial and Government electronics equipment, recover/store
components and raw materials (e.g., glass, plastics, and precious metals) for reuse
and recycling, and demilization; and dispose of any remaining waste. The
DEER2 task performance is February 1999 through September 2003.




                                    23
Appendix C. Federal Acquisition Regulation
            Guidance
   Subpart 45.302 Providing facilities.

   Subpart 45.302-1 Policy, states, "(a) Contractors shall furnish all facilities
   required for performing Government contracts except as provided in this
   subsection. Government facilities provided to contractors shall be individually
   identified in the solicitation, if possible, and contract. Agencies shall not furnish
   facilities to contractors for any purpose, including restoration, replacement, or
   modernization except as follows . . .:

       (1) For use in a Government-owned, contractor-operated plant operated on a
           cost-plus-fee-basis.

       (2) For support of industrial preparedness programs.

       (3) As component of special tooling or special test equipment acquired or
           fabricated at Government expense.

       (4) Contractor’s inability to obtain facilities to fulfill the contract terms.
           Mere assertion by a contractor that it is unable to provide facilities is not,
           in itself, sufficient to justify approval. The Agency head or designee
           must issue a Determination and Finding (FAR Subpart 1.7) that the
           contract cannot be fulfilled by any other practical means or that it is in
           the public interest to provide the facilities. . . .

       (5) As otherwise authorized by law or regulation.

   b) Agencies shall not:

      (1) Furnish new facilities to contractors unless existing Government-owned
          facilities are either inadequate or cannot be economically furnished;

      (2) Use research and development funds to provide contractors with new
          construction or improvement of general utility, unless authorized by law;

      (3) Provide facilities to contractors solely for non-Government use, unless
          authorized by law."

   Subpart 52.244-2, "Subcontracts," states, "(f)(1) The Contractor shall notify the
   Contracting Officer reasonably in advance of placing any subcontract or
   modification thereof for which consent is required under paragraph (c), (d), or (e)
   of this clause, including the following information:"

              (i)     "A description of the supplies or services to be subcontracted.

              (ii)    Identification of the type of subcontract to be used.

                                         24
(iii)   Identification of the proposed subcontractor.

(iv)    The proposed subcontract price.

(v)     The subcontractor’s current, complete, and accurate cost or
        pricing data and Certificate of Current Cost or Pricing Data, if
        required by other contract provisions.

(vi)    The subcontractor's Disclosure Statement or Certificate relating
        to CAS when such data is required by other provisions of this
        contract.

(vii)   A negotiation memorandum reflecting-

           (A) The principal elements of the subcontract price
               negotiations;

           (B) The most significant considerations controlling
               establishment of initial or revised prices;

           (C) The reason cost or pricing data were or were not
               required;

           (D) The extent, if any, to which the Contractor did not rely
               on the subcontractor; cost or pricing data in
               determining the price objective and in negotiating the
               final price;

           (E) The extent to which it was recognized in the
               negotiation that the subcontractor's cost or pricing data
               were not accurate, complete, or current; the action
               taken by the Contractor and the subcontractor; and the
               effect of any such defective data on the total price
               negotiated;"




                          25
Appendix D. Summary of Purchase Order Costs
      Purchase Order            Vendor                   Description          Amount
      991100248                   ∗           Computer Memory                     $*
      990500174                   *           Video Projector                      *
      990500293                   *           Printers                             *
      990500123                   *           Computer                             *
      990300272                   *           Computer                             *
      990100057                   *           Printer                              *
      991000322                   *           Printer/Copier/Scanner               *
      991100220                   *           Computer                             *
      990400042                   *           Computer Related Items               *
      991100443                   *           Computer Hard Drive/Memory           *
      990900361                   *           Interface Card                       *
      991200008                   *           Modem/Controller/Cable               *
      990900051                   *           Computer                             *
      990200003                   *           Computer Monitor                     *
      990700005                   *           Digital Camera                       *
      990400213                   *           Computer Notebook                    *
      990200023                   *           Printer                              *
      990100217                   *           Computer                             *
      990400331                   *           Computer Equipment                   *
      990400370                   *           Computer Rental                      *
      990500349                   *           Computer Rental                      *
      990600224                   *           Computer Rental                      *
      990600243                   *           Computer                             *
      990700162                   *           Computer Rental                      *
      990700169                   *           Interface Card                       *
      990500209                   *           Computers & Related Equipment        *
      990400226                   *           Computer/Hard Dr/Monitor             *
      990400198                   *           Switch/Maintenance                   *
      990400075                   *           Fax Machine/Maintenance              *
      990300237                   *           Compressor Installation              *
      991200019                   *           Herman Miller Furniture              *
      991200163                   *           Furniture                            *
      990700407                   *           Computer                             *
      990800291                   *           Network Analysis Module              *
      990800326                   *           Computer                             *
      990900368                   *           Zip Internal Drive                   *
      990900115                   *           Computer                             *
      990400085                   *           Ehternet                             *
      991100245                   *           Copier                               *
      990800229                   *           IBM 104 Keyboard                     *
      990400081                   *           Computer Related Item                *
      990300295                   *           Computer Equipment                   *
      990400080                   *           HP Laser Jet 4000N Printer           *
      990900388                   *           Projector/Case/Stand                 *
      990800039                   *           Computer Monitor                     *




∗
    Proprietary data omitted.
                                         26
      Purchase Order            Vendor                    Description     Amount

      990300188                   ∗           Computer                        $*
      990300307                   *           Computer                         *
      990400049                   *           Computer and Manuals             *
      990400173                   *           Computer                         *
      990400221                   *           Computer Notebooks               *
      990400291                   *           Computer Equipment               *
      990500106                   *           Laser Jet Printer                *
      990500351                   *           Computer                         *
      990500352                   *           Computer                         *
      990700422                   *           Computers                        *
      990700423                   *           Computers                        *
      990700424                   *           Computers                        *
      990700450                   *           Computers                        *
      990700502                   *           Computer Equipment               *
      990700503                   *           Smartnet Maintenance             *
      990800005                   *           Herman Miller Furniture          *
      990800017                   *           Computers                        *
      990800019                   *           Herman Miller Furniture          *
      990700456                   *           Computer                         *
      990600236                   *           Computer                         *
      990500209                   *           Computer Memory                  *
      990400226                   *           Computer Memory                  *
      990300295                   *           Computer                         *
      990700503                   *           Computer                         *
      990300344                   *           Computer Notebooks               *
      990400055                   *           Computer                         *
      990500260                   *           Computer Notebooks               *
      990400217                   *           Laserjet Printer                 *
      990300040                   *           Lucent Black Telephones          *
      990400189                   *           Computer                         *
      990400054                   *           Computer                         *
      990700065                   *           Computer Monitor                 *
      990600424                   *           Flat Panel Display               *
      990600193                   *           Fax Machine                      *
      990600348                   *           Projector pus                    *
      990700312                   *           Laserjet Printer/Computer        *
      990400192                   *           Computer                         *
      990600392                   *           Office furniture                 *
      990300429                   *           Lucent Black Telephones          *
      991000378                   *           Computers                        *
      990300332                   *           Computers                        *
      990300348                   *           Office furniture                 *
      990700066                   *           Scanner/Printer                  *
      990500042                   *           Electrohome Marquee              *
      990500248                   *           Monitor                          *
      991200024                   *           Misc. Hand Tools                 *



∗
    Proprietary data omitted.
                                         27
      Purchase Order             Vendor                    Description         Amount

        Subtotal For Equipment                                                     $*

      991200218                    ∗           Cleaning Cartridge                   *
      991200001                    *           Tape Cartridge                       *
      991000166                    *           Tape Cartridge                       *
      990400365                    *           Tape Cartridge                       *
      991200447                    *           Tape Cartridge                       *
      990500355                    *           Panaboard/Stand                      *
      990400042                    *           Cable/Disk Pack                      *
      990800137                    *           Port/Maintenance                     *
      990700005                    *           Accessory Kit/Wide Angle Lens        *
      991100007                    *           Adapter                              *
      990600243                    *           Adapter/Charger/Batteries            *
      990700407                    *           Cable/Adapter                        *
      990300295                    *           Speakers                             *
      990700166                    *           Adaptec Controller                   *
      990800039                    *           Computer Equipment                   *
      991000045                    *           Window Blinds                        *
      990300227                    *           Computer Disks                       *
      990800233                    *           Matrix Power Distribution Box        *
      990400049                    *           Computer                             *
      990700503                    *           Computer Equipment                   *
      990800138                    *           Computer Equipment                   *
      990400189                    *           Computer Monitor                     *
      990500042                    *           Cable/Barrels                        *
      990500153                    *           Office Supplies                      *
      990400088                    *           Printer/Ink Cartridges               *
      990500248                    *           Mouse/Keyboard                       *
      991200243                    *           Copier Toner                         *
      990600174                    *           Software                             *
      990600348                    *           Replacement Lamps                    *

        Subtotal For Materials                                                      *

      990500166                    *           Adapter                              *
      990700303                    *           Zip Disks                            *
      990700095                    *           Computer Centers-Servers             *
      990600336                    *           Service Visit                        *
      990600051                    *           Banquet                              *
      990300453                    *           Antivirus Software/Scanmill          *
      990300299                    *           Maintenance                          *
      991200365                    *           Tape Cartridge                       *
      990800186                    *           Internet Access                      *
      990800304                    *           Adobe Acrobat                        *
      990900082                    *           Maintenance Renewal                  *
      990900279                    *           Maintenance Agreement                *
      990900374                    *           Maintenance Agreement                *
      991000117                    *           Server Magic                         *
      990300440                    *           Licenses, Media Pack                 *



∗
    Proprietary data omitted.
                                          28
      Purchase Order            Vendor                  Description          Amount

      990200215                   *           Software                           $*
      990400042                   ∗           Labor/Software                      *
      990400086                   *           Microsoft Project                   *
      981000333                   *           Computer Printer Rental             *
      981200324                   *           Computer & Printer Rental           *
      990200040                   *           Computer Printer Rental             *
      990200083                   *           Computer Rental                     *
      990300150                   *           Computer Rental                     *
      990400368                   *           Computer Rental                     *
      990400330                   *           Computer Software                   *
      990600199                   *           Computer Software                   *
      990400333                   *           Ethernelink                         *
      990500169                   *           Computer Memory                     *
      990600403                   *           Software                            *
      990400171                   *           Software/Server License             *
      990400145                   *           Software                            *
      990600398                   *           Software                            *
      990400080                   *           Memory/Hardware Repair              *
      990900388                   *           Third Year Warranty                 *
      990700355                   *           Edgefield Communication Room        *
      990300019                   *           Software                            *
      990700169                   *           Cisco Maintenance                   *
      990500209                   *           Proliant800 Coverage                *
      991200163                   *           Furniture Installation              *
      991100245                   *           Copy Maintenance Agreement          *
      990300295                   *           MS Office/CAD-CAM/Mouse             *
      991000045                   *           Window Blind Installation           *
      990500106                   *           Memory Upgrade/Hardware             *
      990700422                   *           Computer Server                     *
      990700423                   *           Computer Server                     *
      990700450                   *           Computer Server                     *
      990800017                   *           Computer Server                     *
      990600193                   *           Fax Maintenance                     *
      990700335                   *           Software                            *
      991200192                   *           Computer Server                     *
      990800143                   *           File maker                          *
      990400244                   *           Work Stations                       *
      990300224                   *           Computer Equipment                  *
      990400168                   *           Desk Chair                          *
      990600483                   *           ABC Flow Chart 7.0                  *
      990600323                   *           Rental Computer                     *
      990700066                   *           Computer Equipment                  *
      990600198                   *           Copier/Maintenance                  *
      990600103                   *           Rental Computer                     *
      991200170                   *           Labor to de-install PBX             *
      990700357                   *           Maintenance Renewals                *
      990600334                   *           Shipping Charges for Carpet         *
      990600345                   *           Shipping Charges for Carpet         *


∗
    Proprietary data omitted.
                                         29
Purchase Order                Vendor                    Description              Amount

 Subtotal For Other Direct Costs                                                     $*

991000120                          *        Carpet                                    *
991200430                          *        Furniture Shipping &Installation          *
990200291                          *        Edgefield Facility Construction           *
990600437                          *        Carpet                                    *
990500046                          *        Computer                                  *
990600334                          *        Carpet                                    *
990600345                          *        Carpet                                    *
990200325                          *        Largo Facility                            *
990400306                          *        Workbench                                 *
990400161                          *        Network Cable Installation-Largo          *
990900227                          *        Security System Installation-Largo        *

Subtotal For Subcontracts                                                             *

TOTAL                                                                                $*




                                       30
Appendix E. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Environmental Security)
  Director, Defense Research and Engineering
  Director, Defense Logistics Studies Information Exchange
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installations and Environment)
Army Materiel Command
  Commander, Tank-automotive and Armaments Command, Army Research and
      Development Center
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Installations and Environment)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations and
  Environment)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service



                                           31
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
National Security and International Affairs Division
  Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
House Subcommittee on National Security, Veterans Affairs, and International,
  Committee on Government Reform
House Subcommittee on National Security, Veteran Affairs, and International Relations,
  Committee Government Reform




                                           32
Audit Team Members
   The Contract Management Directorate, Office of the Assistant Inspector General
   for Auditing, DoD, prepared this report. Personnel who contributed to the report
   are listed below.

     Paul J. Granetto
     William C. Gallagher
     Michael Claypool
     Benjamin A. Mehlman
     LTC Stuart G. Harrison
     Peter J. Larson
     Vanessa S. Adams
     Karen A. Ulatowski
     Robert B. France
     Catherine Argubright
     Sylvia Powell
